MEMORANDUM

      ~   .--..
            "


DATE:

TO:                    I97090048                                            il  I




RE:                    close-out 0-ase




Background

On March, 20, 1997, this oflice received an allegation fiom Dr.                   program
officer in the Division of                            who brought a letter '$nd supporting
materials from Dr.                        retaliation against her
government funds                         he University o
Dr. m l e g e d :
complained to University authorities about sexual harrassment and denial 6f access to
NSF-funded equipment and 2) that Dr. d              a private, for-profit coboration called
the                                                         which was addLrtising the
NSF-hnded equipment for personal profit.                                    I




           through July 3 1,             .                                  ,

I
                The award was made to the Univers
   project was conducted under the direction of
*-ad                   D                                                   'I
        Investipative Results
    I


    I
    I   1) No evidence of financial gain via the use of the NSF-funded
        found, and 2) no evidence of personal gain by Dr. a              his company,
        found.


        Investigative Methods and Scope


                     dfi
                                                                    i.

        Theallegations regardingthe retaliation were referred to the
                                                                   .... Misconduct ahd
                                                                     .              ,  Legal
                                                                                              -  ..-..   ... - .
        sections: Dr.                            The Investigations section focused on the
        allegation regar mng possible nanclal improprieties relating to the use of tge NSF-funded
        equipment. Investigations also coordinated with Misconduct and Legal tollensure that all
        overlapping information and evidence pertaining to possible financial imprdprietieswas
I



I
I       explored.                                                                   !I
                                                                                    I!
        The scoDe of this investigation included document reauests from the ~nivdrsitvof




        -
        representative.
                                                                                    '   i
        The following was determined:
                                                                                    11
               The NSF-fbnded                       is much delayed in its set-up' and use, and
                                                                                    1
        1)
               no moneys have been charged for its use.




               According to the                         consistent photos were t$en I between
               April 18, 1996 through September 8, 1997. However, as of a ~ a n d b7,   r ~1998
               conversation with Dr. h                             was difficult to pse, not fully
               operational, and considerable amounts of effort and technical expertise was
               required to produce a single image. Dr. a        s not charged for $s use, nor is he
               aware of any other being charged for use.                            I
                                          the sole conduit for the processing of ny such documentation. NJ Gdicators of
                                          such deposits were present with a review oT a n k statemints from the
                                          period of July 3 1, 1995 through November 19                   '1
                                                                                                                   I


                           3)         a                s incorporated in October, 1989. The University, according to Internal
                                          Audit ~ i r e c t oar              d always know about its existendk, and that it
    - - --   -- -- -   -   -   .---


1
,                                                                      financial records b
I                                         President for Health Affairs on June 2, 199
I
                                          Subsequently, a third audit was conducted
I
I
                                          behest of
                                                  eht ,                  President o f t
                                          indicating any misappropriation of funds.
I                                         contract be made between m             d t+
                                          the future.

                           4.)            NSF OIG's review o        a   r     2 statements between July 3 1, i995 and
                                          November 1997 indicated that there was only one payment larger ihan $500 made
                                          to Dr.                                #1221, in the amount of $3,264, was a
                                                                           his purchase of a                          ne of
                                          several bought by                              &ated              (hat she had seen
                                          this computer, and that the University had title to this machine.
                                                                                                               I
                           5)             The NSF-funded                          was advertised, along with many other

                                                                                                                                    i
                                                                                                               I
                                          pieces of equipment, on an internet page dedicated to-            resources.'
                                          According to ~r.-his            pa e      created to show the various resources
                                          available to those desiring to usem     n    dL J n i V e m                               I
                                                                                                                                    t
                                          "raisel:] funds for the growth of the Department of
                                             hispage is still on the net, in a revised form, without           I
                                                                                                                   the fee-for-
                                          service content.



                           2
                                   Sometime after Dr. -covered             the existence of the
                                                                                                              il   site, and made
                           various allegations to the Unlverslty, the webpage disappeared.       en asked to e!iplain this
                           occurrence, ~ rt . e         d that the net page rovider had also thought the pagb was intended as
                           a private enterprise and thus wanted to charge &r             higher rate structure for commercial
                           venture pages. ~r.-x~lained            to the net provider                   a not-for-profit, and the
                                                                                                                11


                           page was re-instated.
                                                                                                               I
         According to Dr. -total                  revenues over the past 5-8 years is
         approximately $80,000. These funds are used to defray the costs of ~ e ~ a r t m e n t a l
         expenses, through the purchase of equipment, the provision of stipdnds for
         graduate students, the fbnding of student travel to meetings, the fbnding of annual i
                                                                              1t

                   rties, and the purchase of fbmiture. The University doesi!notreimburse
                   r the~e'ex~enses.                                           II


 ~onclusions                                                                  '1

 Based on the above information analyzed, and particularly in light of the thiee institutional
 audits performed & v     e     r the past three years, no significant findinhs of fiaud,
                               or.resourcesb.found,..a.n4 4thejn_\ie_sfigative[~ofli~n
-.waste-or-abuse-of-f~der_a1&_n_4~                                                     of this        --
 case is closed.                                                             -I
                                          :'.; y   ;i;
                                          ,..                                      :Ii
                                                                               .   ;j
                                                                                   jj
